Dred Scott LLP
George Jackson III, Managing Partner
55 West Monroe Street, Suite 990, Chicago, Illinois 60603-5001
GJackson@DredScottLLP.Com Direct: (312) 833-0896 Cellular (773) 454-7645

August 20, 2020
Clerk of Court
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
Re: Combined Rules 22 & 23 (20A13)
Application concerning pending Petition for a
Writ of Certiorari, #19-8665
To Associate Justice Sotomayor
Dear Supreme Court Clerk,
This is Applicant's second Application as allowed by Rule 22.4. We submit this
Application to the Honorable Associate Justice Sonia Maria Sotomayor.
Applicant has been jailed continually since January 15, 2015, and although granted the
right to a new trial on September 9, 2016, (nearly four years ago) he still awaits that trial. He has
been detained for 2,044 days awaiting the right to defend himself at trial. This simply is not
American justice.
On July 22, 2020, the Honorable Associate Justice Brett M. Kavanaugh denied
Applicant's Combined Rules 22 & 23 Application for an Emergency Stay.
The Illinois Court violated due process by entering blanket Orders purporting to toll
Speedy Trial terms in all Illinois criminal cases including Applicant's pending criminal case.
The Illinois Court lacked jurisdiction for the Orders because the cases were not before the
Illinois Court. We challenge use of "ends-of-justice" language. That language is
unconstitutionally over broad. The Illinois Court inserted the language into its April 7, 2020,
tolling Orders.
Urgent intervention by the United States Supreme Court, we submit, is dire. The
problems of blanket tolling Order and ends-of-justice delays is systemic. Federal diE tricREMIVED

AUG 2 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

19-8665 (20A13) Application August 3, 2020

(mainly Chief Judges) across the nation have issued blanket Orders purporting to toll Speedy
Trial terms of all criminal cases within their respective districts. Without jurisdiction the Orders
are void ab initio. The negative impact on defendants and society portends to be massive, and
expanding with time passage. This is an important national issue for the Supreme Court.
We submit the Illinois Court and all other courts were required to follow the procedures
employed in Hawaii federal court. The District Court of Hawaii entered a COVID-19 Order
directing each assigned judge to review individual cases and make appropriate findings in
accordance with the Speedy Trial Act. The Hawaii Chief Judge's COVID-19 Order did not
purport to toll Speedy Trial terms, and indeed did not make any substantive findings.
Instead of awaiting the scheduled September 29, 2020, conference date, Applicant
respectfully seeks to advance Applicant's Petition as an emergency, which he shall submit in a
formal Motion to be filed after submitting this Application. Applicant also requests that this
Honorable Supreme Court grant certiorari.

Respectfully,

Attachment:

2

Case No.

19-8556 (20A13)

In The
SUPREME COURT OF THE UNITED STATES

Anthony Jackson, Petitioner,
V.
Supreme Court of Illinois, Respondent, MR.30370

PROOF OF SERVICE

I, GEORGE JACKSON III, do swear that on this date, August 20, 2020, as required by
Supreme Court Rule 29, I served the enclosed Combined Rules 22 & 23Application for
Emergency Advancement of Petition on the party to the above proceeding or that party's counsel,
and on every other person required to be served, by hand delivering an envelope containing the
above documents to the in the address below. The names and addresses of those served are as
follows:
Supreme Court of Illinois through Michael M. Glick, Office of Illinois Attorney
General, 100 W. Randolph St., 12th Floor, Chicago, IL 60601, mglick@atg.state.il.us
Res s ectfully submitted,
AUGUST 20, 2020
DATE
BY:
GEO E J
Petit er's

nsel i f Record

DRE S SCOTT

Attorney Bar# 313137
55 West Monroe, Suite 990
Chicago, Illinois 60603-5001
(312) 833-0896
GJackson@DredScottLLP.Com

